  September 14, 2006




Information System Security
Summary of Information Assurance
Weaknesses Found in Audit Reports
Issued from August 1, 2005, through
July 31, 2006
(D-2006-110)




            Department of Defense
           Office of Inspector General
Quality             Integrity        Accountability
Additional Copies

To obtain additional copies of this report, contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact Corporate Analysis and
Planning at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas and
requests can also be mailed to:

               ODIG-AUD (ATTN: AFO-CAP Audit Suggestions)
                   Department of Defense Inspector General
                     400 Army Navy Drive (Room 801)
                         Arlington, VA 22202-4704




Acronyms

FISMA                 Federal Information Security Management Act
GAO                   Government Accountability Office
IA                    Information Assurance
OIG                   Office of the Inspector General
OMB                   Office of Management and Budget
                            INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON. VIRGINIA 22202-4704



                                                                     September 14,2006
MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               NAVAL INSPECTOR GENERAL
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY
SUBJECT: Report on Summary of Information Assurance Weaknesses Found in Audit
         Reports Issued kom August 1,2005, through July 3 1,2006
         (Report No. D-2006-110)

         We are providing this summary report for information and use. We did not issue
a draft report because this report summarizes material that has already been staffed and
reported. This report contains no recommendations; therefore, no written response to this
report was required, and none was received.
       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Kathryn M. Truex at (703) 604-8966 (DSN 664-9077) or Ms. Karen J. Goff at
(703) 604-9005 (DSN 664-9005). See Appendix G for the report distribution. The team
members are listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:



                                            Wanda A. Scott
                                      Assistant Inspector General
                                   Readiness and Operations Support
                Department of Defense Office of Inspector General
Report No. D-2006-110                                                  September 14, 2006
   (Project No. D2006-D000LB-0145.000)

Summary of Information Assurance Weaknesses Found in Audit Reports
           Issued from August 1, 2005, through July 31, 2006

                                 Executive Summary

Who Should Read This Report and Why? Military and civil service personnel who
develop, manage, operate, or oversee DoD information technology resources should read
this report to obtain better awareness of identified information security challenges and the
potential risks those challenges pose within the context of a shared DoD information
technology environment.

Background. This report summarizes information assurance weaknesses that the
Government Accountability Office, the DoD Office of the Inspector General, the Army
Audit Agency, the Naval Audit Service, and the Air Force Audit Agency reported
between August 1, 2005, and July 31, 2006. It supports the Federal Information Security
Management Act of 2002, which requires agencies submit to the Office of Management
and Budget the results of an annual independent evaluation of the effectiveness of their
information security programs and practices. The evaluation should include testing of
the effectiveness of information security policies, procedures, and practices of a subset of
the agency’s information systems and may be based, in whole or in part, on an audit,
evaluation, or report relating to agency programs or practices. This report is the eighth
information assurance summary report issued by the DoD Office of the Inspector General
since January 1999.

Summary of Information Assurance Weaknesses. Between August 1, 2005, and
July 31, 2006, the Government Accountability Office, the DoD Office of the Inspector
General, the Army Audit Agency, the Naval Audit Service, and the Air Force Audit
Agency issued 28 reports that addressed a wide range of information assurance
weaknesses that persist throughout DoD systems and networks. If the weaknesses the
reports identify continue, they will impede the ability of DoD to mitigate risks in a shared
information technology environment. Those risks include harm resulting from loss,
misuse, unauthorized access, and modification of information or information systems. A
loss of information is itself unacceptable and could result in loss of mission effectiveness.
Table of Contents

Executive Summary                                                           i

Background                                                                  1

Objectives                                                                  2

Finding
     Information Assurance Weaknesses Persist Throughout DoD                3

Appendixes
     A. Scope and Methodology                                               6
     B. Prior Coverage                                                      7
     C. Glossary                                                            8
     D. Matrix of Information Assurance Weaknesses Reported From
        August 1, 2005, through July 31, 2006                              10
     E. Audit Reports Issued From August 1, 2005, through July 31, 2006,
          Identifying Information Assurance Weaknesses                     12
     F. Audit Reports from Prior Information Assurance Summary Reports
          with Unresolved Recommendations                                  15
     G. Report Distribution                                                19
Background
    This report summarizes information assurance (IA) weaknesses that the
    Government Accountability Office (GAO), the DoD Office of Inspector General
    (OIG), the Army Audit Agency, the Naval Audit Service, and the Air Force Audit
    Agency (DoD audit community) identify in reports between August 1, 2005, and
    July 31, 2006. This report is one in a series and is the eighth IA summary report
    the DoD OIG has issued since January 1999. The eight IA summary reports
    contain 369 reports summarizing IA weaknesses.

    This report supports the DoD OIG response to section 3545, Public Law 107-347,
    Title III, “Federal Information Security Management Act,” December 17, 2002,
    requiring agencies to submit the results of an annual independent evaluation of
    the effectiveness of their information security policies, procedures, and practices
    of a subset of the agency’s information systems to the Office of Management and
    Budget (OMB). The evaluation results may be based, in whole or in part, on an
    audit, evaluation, or report relating to agency programs and practices.

    Federal Information Security Management Act. The Federal Information
    Security Management Act (FISMA) provides a comprehensive framework for
    ensuring the effectiveness of IA controls over information resources that support
    Federal operations and assets. FISMA requires that each agency develop,
    document, and implement an agency-wide IA program to provide IA for the
    information and information systems that support the operations and assets of the
    agency. Each agency is to ensure compliance with FISMA and related policies,
    procedures, standards, and guidelines, including the information security
    standards promulgated under section 11331, title 40, United States Code
    (40 U.S.C. 11331),“Responsibilities for Federal information systems standards.”
    40 U.S.C. 11331 requires standards and guidelines for Federal information
    systems to be based on standards and guidelines developed by the National
    Institute of Standards and Technology. FISMA permits agencies to employ IA
    standards developed by the agency as long as the standards are more stringent
    than those prescribed under FISMA.

    National Institute of Standards and Technology. To meet its statutory
    responsibilities under FISMA, the National Institute of Standards and
    Technology, under the U.S. Department of Commerce, developed a series of
    standards and guidelines for Federal agencies that provide adequate IA for agency
    operations and assets. Specifically, the Computer Security Division of the
    Information Technology Laboratory developed computer security prototypes,
    tests, standards, and procedures designed to protect sensitive information from
    unauthorized access or modification. Focus areas include cryptographic
    technology and applications, advanced authentication, public key infrastructure,
    internetworking security, criteria and assurance, and security management and
    support. The standards and guidelines present the results of National Institute of
    Standards and Technology studies, investigations, and research on information
    technology security issues.

    DoD Information Technology Security Certification and Accreditation
    Process. DoD continues to rely upon DoD Instruction 5200.40, “Department of


                                         1
    Defense Information Technology Security Certification and Accreditation Process
    (DITSCAP),” December 30, 1997, and DoD Manual 8510.1-M, “Department of
    Defense Information Technology Security Certification and Accreditation Process
    Application Manual,” July 31, 2000, to direct the certification and accreditation
    process for DoD national security and non-national security information systems.
    On July 6, 2006, the office of the Assistant Secretary of Defense for Networks
    and Information Integration issued the “Department of Defense Information
    Assurance Certification and Accreditation Process,” as interim guidance for IA
    certification and accreditation throughout DoD. The interim guidance is to
    supersede the DoD Information Technology Security Certification and
    Accreditation Process and was effective when issued.

    DoD Information Assurance Guidance. The primary DoD IA guidance
    includes:

           •   DoD Directive 8500.1, “Information Assurance,” October 24, 2002,
               which establishes policy and assigns responsibility to achieve IA
               throughout DoD;

           •   DoD Instruction 8500.2, “Information Assurance Implementation,”
               February 6, 2003, which implements the policy, assigns
               responsibilities, and prescribes procedures for applying integrated
               layered protection of DoD information systems and networks as DoD
               Directive 8500.1 outlines; and

           •   DoD Directive 8570.1, “Information Assurance Training,
               Certification, and Workforce Management,” August 15, 2004, which
               establishes policy and assigns responsibility for DoD IA training,
               certification, and workforce management.


Objectives
    This is one in a series of summary reports that the DoD OIG has completed
    annually since 1999. The overall objective was to summarize reports by GAO
    and the DoD audit community between August 1, 2005, and July 31, 2006. This
    summary report supports the DoD OIG response to the requirements of FISMA.

    See Appendix A for a discussion of the scope and methodology and Appendix B
    for prior coverage related to the objective.




                                        2
                   Information Assurance Weaknesses
                   Persist Throughout DoD
                   Between August 1, 2005, and July 31, 2006, GAO and the DoD audit
                   community issued 28 reports addressing a wide range of IA weaknesses
                   that persist throughout DoD systems and networks.* This report
                   summarizes those reports.

                   If the IA weaknesses identified in the reports continue, they will impede
                   the ability of DoD to mitigate risks in a shared information technology
                   environment. Those risks include harm resulting from loss, misuse,
                   unauthorized access, and modification of information or information
                   systems. A loss of information in DoD information systems is itself
                   unacceptable and could additionally result in the loss of mission
                   effectiveness.


Persistent Information Assurance Weaknesses
           GAO and the DoD audit community issued 28 reports between August 1, 2005,
           and July 31, 2006, that identify weaknesses in IA areas defined by FISMA, the
           DoD Information Technology Security Certification and Accreditation Process, or
           DoD Instruction 8500.2. The table on the next page shows the number of GAO
           and DoD audit community reports that identify weaknesses in IA areas. See
           Appendix C for a glossary of specialized terms.




*
    The DoD OIG reported similar IA weaknesses in seven previous IA summary reports.



                                                    3
         Audit Reports Identifying Information Assurance Weaknesses
                    (August 1, 2005, through July 31, 2006)
                                                               Military
            IA Areas                       GAO   DoD OIG     Departments     Total

Access Controls                            0        10            9           19
Audit Trails                               0        6             0            6
Certification and Accreditation            1         5            6           12
Configuration Management                   0        4             2            6
Contingency Plans                          0        3             3            6
Continuity of Operations Plans             0        2             1            3
Federal Information Systems
 Inventory Reporting                       0        1             0            1
Incident Response                          0        2             0            2
Personnel Security                         0        3             1            4
Physical Security                          0        4             0            4
Plans of Action and Milestones             1        3             0            4
Risk Assessments                           1        1             1            3
Security Awareness, Training,
 and Education                             1        7             0            8
Security Policies and Procedures           0        9             3           12
Segregation of Duties                      0        3             1            4


Reports issued during the reporting period most frequently cited weaknesses in
the following IA areas: access controls; certification and accreditation; security
awareness, training, and education; and security policies and procedures. See
Appendix D for a matrix of the specific IA weakness listed by report and
Appendix E for a list of reports reviewed for this IA summary report.

       Access Controls. Access controls limit access to information system
resources only to authorized users, programs, process, or other systems. GAO
and the DoD audit community reported weaknesses related to access controls in
19 issued reports. The weaknesses reported related to:

             •   user account management, including maintaining complete user
                 account forms, reviewing accounts periodically to determine
                 whether access is still necessary, and reviewing user activity; and

             •   actions allowed by the systems, including denial of access as a
                 result of invalid logon attempts.

        Certification and Accreditation. Certification and accreditation is a
combined process that makes up the DoD Information Technology Security
Certification and Accreditation Process. The DoD certification and accreditation
process is a standard process, set of activities, general tasks, and a management
structure to certify and accredit information systems that will maintain the IA and
security posture of the Defense Information Infrastructure. GAO and the DoD
audit community identified weaknesses related to certification and accreditation
in 12 reports. Issued reports identified systems not fully certified and accredited


                                       4
    and DoD Information Technology Security Certification and Accreditation
    Processes that were not fully implemented. In addition, System Security
    Authorization Agreements—the documentation used for the certification and
    accreditation process—were found deficient because the agreements:

               •   did not contain all the security requirements,

               •   did not reflect the system environment,

               •   were not approved by required individuals, and

               •   were not prepared in some instances.

            Security Awareness, Training, and Education. Issued reports identified
    weaknesses in the area of training for personnel with information security
    responsibilities and administration of training. GAO and DoD OIG reported
    weaknesses relating to security awareness, training, and education in eight issued
    reports.

           Security Policies and Procedures. Issued audit reports identified
    weaknesses in security policies and procedures. GAO and the DoD audit
    community reported weaknesses relating to security policies and procedures in
    12 issued reports.

    The seven previous IA summary reports summarized 341 reports citing IA
    weaknesses throughout DoD. Of those 341 reports, 45 reports were older than 12
    months with final management action pending to correct agreed-upon IA
    weaknesses. Prompt action to correct the outstanding weaknesses is necessary to
    mitigate ongoing vulnerabilities in the DoD IA program. See Appendix F for a
    listing of reports with unresolved recommendations relating to IA weaknesses.


Conclusion
    Many of the weaknesses reported occurred because adequate security program
    management including security policies and procedures were not in place.
    Without adequate security program management and security policies and
    procedures, DoD cannot provide and maintain appropriate security for managing,
    protecting, and distributing information. Implementing adequate security
    program management and security policies and procedures may reduce the risk of
    persistent IA weaknesses, thereby reducing harm from loss, misuse, unauthorized
    access, or modification of information or information systems.




                                         5
Appendix A. Scope and Methodology
   This report summarizes the DoD IA weaknesses identified in 28 reports that GAO
   and the DoD audit community issued from August 1, 2005, through
   July 31, 2006. We reviewed the Web sites of GAO and each component audit
   organization, as well as requested reports discussing IA weaknesses from each
   such organization to prepare this summary. We also reviewed prior IA summary
   reports and determined, with the assistance of GAO and DoD audit community
   follow-up organizations, summarized reports with unresolved recommendations
   on IA weaknesses.

   This summary report does not make recommendations because recommendations
   were made in the summarized reports. We did not follow generally accepted
   government auditing standards in conducting this project because it is a summary
   project. We did not summarize congressional testimonies as originally announced
   because reviews of IA testimonies issued during the reporting period identified
   that the testimonies did not apply specifically, if at all, to DoD. Also, we did not
   include independent tests of management controls or validate the information or
   results reported in the summarized reports. This summary report supports the
   DoD OIG response to the OMB questions relating to FISMA. We conducted this
   summary work from March through August 2006.

   Use of Computer-Processed Data. We did not use computer-processed data
   when compiling information for this summary report.




                                        6
Appendix B. Prior Coverage
   The DoD OIG has issued seven information security summary reports. Report
   No. 99-069 can be obtained by contacting the Secondary Reports Distribution
   Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932. The remainder
   of the reports are For Official Use Only and can be obtained by contacting the
   Freedom of Information Act Requester Service Center at (703) 604-9775
   (DSN 664-9775) or fax (703) 602-0294.

   DoD IG Report No. D-2005-110, “Summary of Information Security Weaknesses
   Reported by Major Oversight Organizations From August 1, 2004, through
   July 31, 2005 (FOUO),” September 23, 2005

   DoD IG Report No. D-2004-116, “Information Security Weaknesses Reported by
   Major Oversight Organizations From August 1, 2003, through July 31, 2004
   (FOUO),” September 23, 2004

   DoD IG Report No. D-2004-038, “Information Assurance Challenges – A
   Summary of Results Reported from August 1, 2002, through July 31, 2003
   (FOUO),” December 22, 2003

   DoD IG Report No. D-2003-024, “Information Assurance Challenges – An
   evaluation of Audit Results Reported from August 23, 2001, through
   July 31, 2002 (FOUO),” November 21, 2002

   DoD IG Report No. D2001-182, “Information Assurance Challenges – A
   Summary of Audit Results Reported April 1, 2000, through August 22, 2001
   (FOUO),” September 19, 2001

   DoD IG Report No. D2000-124, “Information Assurance Challenges – A
   Summary of Audit Results Reported December 1, 1998, through March 31, 2000
   (FOUO),” May 15, 2000

   DoD IG DoD Report No. 99-069, “Summary of Audit Results – DoD Information
   Assurance Challenges,” January 22, 1999




                                      7
Appendix C. Glossary
   Access Controls – Access controls limit information system resources to
   authorized users, programs, processes, or other systems.

   Audit Trail – An audit trail is a chronological record of system activities that
   enable the reconstruction and examination of the sequence of events and/or
   changes in an event.

   Certification and Accreditation – Certification and accreditation is a combined
   process that makes up the DoD Information Technology Security Certification
   and Accreditation Process.

           •   Accreditation – Accreditation is the formal declaration by a
               designated accrediting authority that an information system is
               approved to operate in a particular security mode at an acceptable
               level of risk, based on the implementation of an approved set of
               technical, managerial, and procedural safeguards.

           •   Certification – Certification is a comprehensive evaluation of the
               technical and nontechnical security safeguards of an information
               system to support the accreditation process that establishes the extent
               to which a particular design and implementation meets a set of
               specified security requirements.

   Configuration Management – Configuration management is the management of
   security features and assurances through control of changes made to hardware,
   software, firmware, documentation, test, test fixtures, and test documentation
   throughout the life cycle of an information system.

   Contingency Plan – A contingency plan is maintained for emergency response,
   backup operations, and post-disaster recovery of an information system to ensure
   the availability of critical resources and to facilitate the continuity of operations in
   an emergency situation.

   Continuity of Operations Plan – A continuity of operations plan is a plan for
   continuing an organization’s essential functions at an alternate site and
   performing those functions for the duration of an event with little or no loss of
   continuity before returning to normal operations.

   Federal Information Systems Inventory Reporting – The head of each agency
   must develop and maintain an inventory of major information systems, including
   major national security systems, operated by or under the control of the agency.
   The inventory of information systems or networks should include those not
   operated by or under the control of the agency.

   Incident Response – Also known as incident handling, incident response is the
   mitigation of violations of security policies and recommended practices.




                                          8
Personnel Security – The objective of the Personnel Security Program is to
ensure that the military, civilian, and contractor personnel assigned to and
retained in sensitive positions in which they could potentially damage national
security are, and remain, reliable and trustworthy, and no reasonable basis exists
for doubting their allegiance to the United States. Assignment to sensitive duties
is granted only to individuals who are U.S. citizens and for whom an appropriate
investigation has been completed.

Physical Security – Physical security refers to measures taken to protect systems,
buildings, and related supporting infrastructure against threats associated with
their physical environment.

Plan of Action and Milestones – A plan of action and milestones is a tool that
identifies tasks that need to be accomplished. A plan of action and milestones
details resources required to accomplish the elements of the plan, any milestones
in meeting the task, and scheduled completion dates for the milestones. The
purpose of a plan of action and milestones is to assist agencies in identifying,
assessing, prioritizing, and monitoring the progress of corrective efforts for
security weaknesses found in programs and systems.

Policies and Procedures – Policies and procedures are the aggregate of
directives, regulations, rules, and practices that regulate how an organization
manages, protects, and distributes information. Information security policy can
be contained in public laws, Executive orders, DoD Directives, and local
regulation.

Risk Assessment – Risk assessment is an analysis of threats to and vulnerabilities
of information systems and the potential impact resulting form the loss of an
information system and its capabilities. The analysis is used as a basis for
identifying appropriate and cost-effective security measures.

Security Awareness, Training, and Education

       •   Awareness – Awareness is a learning process that sets the stage for
           training by changing individual and organization attitudes to realize
           the importance of security and the adverse consequences of its failure.

       •   Training – Training is teaching people the knowledge and skills that
           will enable them to perform their jobs more effectively.

       •   Education – Education focuses on developing the ability and vision to
           perform complex, multi-disciplinary activities and the skills needed to
           further the information technology security profession. Education
           activities include research and development to keep pace with
           changing technologies.

Segregation of Duties – Segregation of duties refers to dividing roles and
responsibilities so that a single individual cannot subvert a critical process.




                                      9
Appendix D. Matrix of Information Assurance
            Weaknesses Reported From August 1,
            2005, through July 31, 2006




                                                                                                                                                                                                                                                                                                                                                      Security Policies and Procedures
                                                        Certification and Accreditation




                                                                                                                                        Continuity of Operations Plans




                                                                                                                                                                                                                                                                                                                      Security Awareness, Training,
                                                                                                                                                                                                                                                                    Plan of Action and Milestones
                                                                                                                                                                         Federal Information Systems
                                                                                          Configuration Management




                                                                                                                                                                                                                                                                                                                                                                                         Segregation of Duties
                                                                                                                                                                         Inventory Reporting


                                                                                                                                                                                                                           Personnel Security
                                                                                                                                                                                                       Incident Response
                                                                                                                     Contingency Plan




                                                                                                                                                                                                                                                Physical Security



                                                                                                                                                                                                                                                                                                    Risk Assessment
                       Access Controls

                                         Audit Trails




                                                                                                                                                                                                                                                                                                                      Education
   Report No.
   Government
  Accountability
     Office
    GAO-06-31                                           X                                                                                                                                                                                                           X                               X                        X


    Office of the
Inspector General of
      the DoD
    D-2006-096         X                 X              X                                                            X                                                                                 X                   X                                        X                                                        X                        X

    D-2006-086         X                 X                                                X                          X                                                                                                                          X                                                   X                        X                        X                                  X
    D-2006-084                                                                                                                                                                                                                                                                                                                                        X
    D-2006-079         X                                X                                                                               X                                                                                                                           X                                                        X

    D-2006-078                                                                                                                                                                                                                                                                                                                                        X

    D-2006-074         X                                                                  X                                                                                                                                                     X                                                                            X

    D-2006-069         X                 X                                                X                                             X                                                                                                       X                                                                            X                        X                                  X
    D-2006-060                                          X                                 X

    D-2006-053         X                 X              X                                                            X                                                                                 X                                                            X                                                        X                        X

    D-2006-052                           X                                                                                                                                                                                 X                                                                                                 X
    D-2006-046         X                 X              X                                                                                                                                                                                                                                                                                             X                                  X

    D-2006-042                                                                                                                                                                  X

    D-2006-033         X                                                                                                                                                                                                                                                                                                                              X




                                                                                                                                        10
                                                                                                                                                                                                                                                                  Army




                                                                                                                                                                                                                                Naval




     Total
                                                                                                                                                                                                  Air Force
                                                                                                                                                                                                                N2006-0003
                                                                                                                                                                                                                             Audit Service
                                                                                                                                                                                                                                                                                                                     Report No.




                                                                                                                                                                                                                                                                              D-2005-099
                                                                                                                                                                                                                                                                                           D-2006-003
                                                                                                                                                                                                                                                                                                        D-2006-030




                                                                                                                                                                                                 Audit Agency
                                                                                                                                                                                                                                                               Audit Agency
                                                                                                                                                                                                                                             A-2006-0152-FFH




                                                                         F2006-0001-FB2000




             F2005-0009-FB2000
                                                     F2005-0010-FB2000
                                                                                             F2006-0003-FB2000
                                                                                                                 F2006-0004-FB2000
                                                                                                                                     F2006-0006-FB2000
                                                                                                                                                         F2006-0007-FB2000
                                                                                                                                                                             F2006-0008-FB2000




                                 F2005-0010-FD4000
                                                                         X




             X
                                                     X
                                                                                             X
                                                                                                                                     X
                                                                                                                                                         X
                                                                                                                                                                             X




                                 X
                                                                                                                                                                                                                X
                                                                                                                                                                                                                                                                                           X
                                                                                                                                                                                                                                                                                                        X




     19
                                                                                                                                                                                                                                                                                                                     Access Controls




     6
                                                                                                                                                                                                                                                                                                                     Audit Trails




                                                                         X
                                                     X
                                                                                                                 X
                                                                                                                                     X
                                                                                                                                                         X
                                                                                                                                                                             X




     12
                                                                                                                                                                                                                                                                                                                     Certification and Accreditation




     6
                                                                         X
                                                                                                                                                                                                                                             X
                                                                                                                                                                                                                                                                                                                     Configuration Management




     6
                                                                         X
                                                                                                                                     X
                                                                                                                                                                             X
                                                                                                                                                                                                                                                                                                                     Contingency Plan




     3




11
                                                                                                                                                         X
                                                                                                                                                                                                                                                                                                                     Continuity of Operations Plans
                                                                                                                                                                                                                                                                                                                     Federal Information Systems




     1
                                                                                                                                                                                                                                                                                                                     Inventory Reporting




     2
                                                                                                                                                                                                                                                                                                                     Incident Response




     4
                                                                                                                                                                                                                X
                                                                                                                                                                                                                                                                                           X




                                                                                                                                                                                                                                                                                                                     Personnel Security




     4
                                                                                                                                                                                                                                                                                           X




                                                                                                                                                                                                                                                                                                                     Physical Security




     4
                                                                                                                                                                                                                                                                                                                     Plan of Action and Milestones




     3
                                                                         X
                                                                                                                                                                                                                                                                                                                     Risk Assessment
                                                                                                                                                                                                                                                                                                                     Security Awareness, Training,




     8
                                                                                                                                                                                                                                                                                                                     Education




                                                                         X
                                                                                                                 X
                                                                                                                                                                                                                X
                                                                                                                                                                                                                                                                              X




     12
                                                                                                                                                                                                                                                                                                                     Security Policies and Procedures




     4
                                                                         X
                                                                                                                                                                                                                                                                                                                     Segregation of Duties
Appendix E. Audit Reports Issued Between
            August 1, 2005, and July 31, 2006,
            Identifying Information Assurance
            Weaknesses

GAO
    GAO Report No. GAO-06-3, “The Defense Logistics Agency Needs to Fully
    Implement Its Security Program,” October 7, 2005


DoD IG
    DoD IG Report No. D-2006-096, “Select Controls for the Information Security of
    the Command and Control Battle Management Communications System
    (FOUO),” July 14, 2006

    DoD IG Report No. D-2006-086, “Report on General and Applications Controls
    at the Defense Information Systems Agency, Center for Computing Services
    (FOUO),” May 18, 2006

    DoD IG Report No. D-2006-084, “Information Assurance of Commercially
    Managed Collaboration Services for the Global Information Grid,” May 17, 2006

    DoD IG Report No. D-2006-079, “Review of the Information Security
    Operational Controls of the Defense Logistic Agency’s Business Systems
    Modernization-Energy,” April 24, 2006
    DoD IG Report No. D-2006-078, “Defense Information Systems Agency
    Encore II Information Technology Solutions Contract (FOUO),” April 21, 2006

    DoD IG Report No. D-2006-074, “Technical Report on the Defense Civilian Pay
    System General and Application Controls (FOUO),” April 12, 2006

    DoD IG Report No. D-2006-069, “Technical Report on the Defense Business
    Management System (FOUO),” April 3, 2006

    DoD IG Report No. D-2006-060, “System Engineering Planning for the Ballistic
    Missile Defense System (FOUO),” March 2, 2006

    DoD IG Report No. D-2006-053, “Select Controls for the Information Security of
    the Ground-Based Midcourse Defense Communications Network,”
    February 24, 2006




                                      12
    DoD IG Report No. D-2006-052, “DoD Organization Information Assurance
    Management of Information Technology Goods and Services Acquired Through
    Interagency Agreements,” February 23, 2006

    DoD IG Report No. D-2006-046, “Technical Report on the Defense Property
    Accountability System,” January 27, 2006

    DoD IG Report No. D-2006-042, “Security Status for Systems Reported in DoD
    Information Technology Databases,” December 30, 2005

    DoD IG Report No. D-2006-033, “Defense Finance and Accounting Service
    Corporate Database User Access Controls,” December 7, 2005

    DoD IG Report No. D-2006-030, “Report on Diagnostic Testing at the Defense
    Information Systems Agency, Center for Computing Services (FOUO),”
    November 30, 2005

    DoD IG Report No. D-2006-003, “Security Controls Over Selected Military
    Health System Corporate Databases (FOUO),” October 7, 2005

    DoD IG Report No. D-2005-099, “Status of Selected DoD Policies on
    Information Technology Governance,” August 19, 2005


Army Audit Agency
    Army Audit Agency Report No. A-2006-0152-FFH, “Information Assurance for
    Medical Communications for Combat Casualty Care,” June 30, 2006


Naval Audit Service
    Naval Audit Service Report No. N2006-0003, “Safeguarding Department of the
    Navy Protected Health Information in Medical Automated Information Systems,”
    November 10, 2005


Air Force Audit Agency
    Air Force Audit Agency Report No. F2006-0008-FB2000, “System Controls for
    Item Manager Wholesale Requisition Process System,” June 21, 2006

    Air Force Audit Agency Report No. F2006-0007-FB2000, “Missile Readiness
    Integrated Support Facility/Integrated Missile Database System Controls,”
    May 30, 2006

    Air Force Audit Agency Report No. F2006-0006-FB2000, “Controls for the
    Wholesale and Retail Receiving and Shipping System,” May 19, 2006


                                     13
Air Force Audit Agency Report No. F2006-0004-FB2000, “Implementation of
Selected Aspects of Security in Air Force Systems,” April 17, 2006

Air Force Audit Agency Report No. F2006-0003-FB2000, “Automated Civil
Engineer System - Real Property Controls,” April 12, 2006

Air Force Audit Agency Report No. F2006-0001-FB2000, “Reliability of Data
Supporting Air Force Information and Logistics Systems,” November 15, 2005

Air Force Audit Agency Report No. F2005-0010-FB2000, “System Controls for
Financial Inventory Accounting and Billing System,” September 20, 2005

Air Force Audit Agency Report No. F2005-0010-FD4000, “Military Equal
Opportunity,” August 9, 2005

Air Force Audit Agency Report No. F2005-0009-FB2000, “Base Realignment
and Closer Facility Analysis Capability Tool,” August 8, 2005




                                 14
Appendix F. Audit Reports from Prior
            Information Assurance Summary
            Reports with Unresolved
            Recommendations
    IA weaknesses continue to exist throughout DoD. Of the 341 reports included in
    seven prior IA summary reports, 45 reports were older than 12 months with final
    management action pending to correct agreed-upon IA weaknesses earlier reports
    identify. The listing of reports with unresolved recommendations was compiled
    based on information GAO and the DoD audit community provided in June 2006
    and may be incomplete based on the extent of information maintained in their
    respective follow-up systems.


DoD IG
    DoD IG Report No. D-2005-094, “Proposed DoD Information Assurance
    Certification and Accreditation Process (FOUO),” July 21, 2005

    DoD IG Report No. D-2005-069, “Audit of the General and Application Controls
    of the Defense Civilian Pay System (FOUO),” May 13, 2005

    DoD IG Report No. D-2005-054, “Audit of the DoD Information Technology
    Security Certification and Accreditation Process (FOUO),” April 28, 2005

    DoD IG Report No. D-2005-034, “Implementation of Interoperability and
    Information Assurance Policies for Acquisition of Air Force Systems,”
    February 2, 2005

    DoD IG Report No. D-2005-033, “Implementation of Interoperability and
    Information Assurance Policies for Acquisition of Navy Systems,”
    February 2, 2005

    DoD IG Report No. D-2005-025, “DoD FY 2004 Implementation of the Federal
    Information Security Management Act for Information Technology Training and
    Awareness,” December 17, 2004

    DoD IG Report No. D-2005-023, “Assessment of DoD Plan of Action and
    Milestone Process (FOUO),” December 13, 2004

    DoD IG Report No. D-2004-114, “The Follow-up on the Government
    Accountability Office and U.S. Army Audit Agency Recommendations for the
    U.S. Army Corps of Engineers (FOUO),” September 21, 2004

    DoD IG Report No. D-2004-041 “The Security of the Army Corps of Engineers
    Enterprise Infrastructure Services Wide-Area Network (FOUO),”
    December 26, 2003

                                       15
    DoD IG Report No. D-2004-008, “Implementation of Interoperability and
    Information Assurance Policies for Acquisition of Army Systems,”
    October 15, 2003

    DoD IG Report No. D-2003-134, “System Security of the Army Corps of
    Engineers Financial Management System (FOUO),” September 15, 2003

    DoD IG Report No. D-2003-114, “Defense Logistics Agency’s Implementation of
    the Government Information Security Reform (FOUO),” June 30, 2003

    DoD IG Report No. D-2002-108, “Standard Procurement System Certification
    and Accreditation Process (FOUO),” June 19, 2002

    DoD IG Report No. D-2001-148, “Automated Transportation Payments,”
    June 22, 2001

    DoD IG Report No. D-2001-141, “Allegations to the Defense Hotline on the
    Defense Security Assistance Management System,” June 19, 2001

    DoD IG Report No. D-2001-016, “Security Controls Over Contractor Support for
    Year 2000 Renovation,” December 12, 2000


Army Audit Agency
    Army Audit Agency Report No. A-2005-0200-FFI, “Headquarters, Department of
    the Army Information Technology Purchase Process,” June 27, 2005

    Army Audit Agency Report No. A-2005-0204-FFC, “Security of Civil Works
    Water Resources Infrastructure U.S. Army Corps of Engineers,” June 23, 2005

    Army Audit Agency Report No. A-2005-0175-FFI, “Common-User Support
    (Single Directorate of Information Management Project),” June 14, 2005

    Army Audit Agency Report No. A-2004-0486-FFC, “Follow-up Audit of Corps
    of Engineers Financial Management System, General and Application Controls,”
    September 9, 2004

    Army Audit Agency Report No. A-2004-0216-FFB, “Information Systems
    Security Material Weakness,” April 8, 2004

    Army Audit Agency Report No. A-2003-0366-FFB, “The Army’s FY 01
    Response to DoD for the Government Information Security Reform Act,”
    August 5, 2003

    Army Audit Agency Report No. A-2003-0287-FFB, “Selected Aspects of
    Information Assurance,” June 5, 2003

    Army Audit Agency Report No. A-2003-0283-FFB, “Selected Aspects of
    Information Assurance,” May 30, 2003


                                      16
     Army Audit Agency Report No. A-2002-0610-FFC, “Corps of Engineers
     Financial Management System: General and Application Controls,”
     September 30, 2002

     Army Audit Agency Report No. A-2002-0587-FFB, “The Army’s
     Implementation of the Government Information Security Reform Act - Lessons
     Learned,” September 30, 2002

     Army Audit Agency Report No. AA 01-319, “Corps of Engineers Financial
     Management System: General and Application Controls,” June 26, 2001

     Army Audit Agency Report No. AA 00-287, “Information Assurance -Phase V:
     Information Assurance Vulnerability Alert Process (FOUO),” June 30, 2000

     Army Audit Agency Report No. AA 00-286, “Information Assurance - Phase IV:
     Reporting Process and Vulnerability Assessment Results (FOUO),” June 30, 2000


Naval Audit Services
     Naval Audit Services Report No. N2005-0049, “Information Security Controls at
     Naval Shipyards,” July 7, 2005

     Naval Audit Services Report No. N2005-0036, “Verification of the Reliability
     and Validity of the Navy Enlisted System Data (FOUO),” March 30, 2005

     Naval Audit Services Report No. N2004-0063, “Information Security -
     Operational Controls at Naval Aviation Depots,” July 9, 2004

     Naval Audit Services Report No. N2003-0060, “Reliability and Validity of the
     Optimized Naval Logistics Command Management Information System,”
     July 22, 2003

     Naval Audit Services Report No. N2003-0012, “Verification of the Reliability
     and Validity of the Department of the Navy’s Total Force Manpower
     Management System (TFMMS) Data,” November 8, 2002


Air Force Audit Agency
     Air Force Audit Agency Report No. F2005-0005-FB4000, “Certification and
     Accreditation of Air Force Major Command Systems,” July 11, 2005

     Air Force Audit Agency Report No. F2004-0006-FB2000, “System Controls for
     Reliability and Maintainability Information System,” September 27, 2004

     Air Force Audit Agency Report No. F2004-0006-FB4000, “Visibility of Air
     Force Information Technology Resources,” May 4, 2004



                                        17
Air Force Audit Agency Report No. F2004-0020-FBP000, “PACAF Storage Area
Network, 15th Airlift Wing, Hickam AFB, Hawaii,” March 3, 2004

Air Force Audit Agency Report No. F2004-0021-FBP000, “PACAF Storage Area
Network, HQ Pacific Air Force, Hickam AFB, Hawaii,” March 3, 2004

Air Force Audit Agency Report No. F2003-0010-FB4000, “Air Force Space
Command Information Security Program and Practices (FOUO),” June 30, 2003

Air Force Audit Agency Report No. F2003-0005-FB1000, “Comptroller Quality
Assurance Program” July 24, 2003

Air Force Audit Agency Report No. F2003-0014-FB4000, “Certification and
Accreditation of Air Force Classified System (FOUO),” August 20, 2003

Air Force Audit Agency Report No. F2002-0019-WH0000, “Classified Computer
Equipment, 353d Special Operations Group, Kadena Air Base, Japan,”
December 11, 2001

Air Force Audit Agency Report No. F2002-0017-WH0000, “Classified Computer
Equipment, 18th Wing, Kadena Air Base, Japan,” November 29, 2001

Air Force Audit Agency Report No. 00054006, “Air Force Restoration
Information Management System Controls,” May 18, 2001




                                 18
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Defense Business Transformation Agency
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense for Networks and Information Integration/Chief
   Information Officer
Assistant Secretary of Defense for Health Affairs/Chief Information Officer
Assistant Secretary of Defense for Intelligence Oversight/Chief Information Officer
Chief Information Officer, Office of the Secretary of Defense
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff
Chief Information Officer, Joint Staff

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Chief Information Officer, Department of Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy
Chief Information Officer, Department of the Navy
Chief Information Officer, U.S. Marine Corps

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Chief Information Officer, Department of the Air Force




                                           19
Unified Commands
Chief Information Officer, U.S. Central Command
Chief Information Officer, U.S. European Command
Chief Information Officer, U.S. Joint Forces Command
Chief Information Officer, U.S. Northern Command
Chief Information Officer, U.S. Pacific Command
Chief Information Officer, U.S. Southern Command
Chief Information Officer, U.S. Special Operations Command
Chief Information Officer, U.S. Strategic Command
Chief Information Officer, U.S. Transportation Command

Other Defense Organizations
Chief Information Officer, American Forces Information Service
Chief Information Officer, Defense Advanced Research Projects Agency
Chief Information Officer, Defense Contract Audit Agency
Chief Information Officer, Defense Contract Management Agency
Chief Information Officer, Defense Commissary Agency
Chief Information Officer, Defense Finance and Accounting Agency
Chief Information Officer, Defense Human Resource Activity
Chief Information Officer, Defense Information Systems Agency
Chief Information Officer, Defense Logistics Agency
Chief Information Officer, Department of Defense Education Activity
Chief Information Officer, Department of Defense Inspector General
Chief Information Officer, Defense Security Cooperation Agency
Chief Information Officer, Defense Security Service
Chief Information Officer, Defense Technical Information Center
Chief Information Officer, Defense Threat Reduction Agency
Chief Information Officer, DoD Test Resources Management Center
Chief Information Officer, Defense Technology Security Administration
Chief Information Officer, Missile Defense Agency
Chief Information Officer, Pentagon Force Protection Agency
Chief Information Officer, TRICARE Management Agency
Chief Information Officer, U.S. Mission North Atlantic Treaty Organization
Chief Information Officer, Washington Headquarters Service


Non-Defense Federal Organization
Office of Management and Budget




                                          20
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        21
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Operations Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Kathryn M. Truex
Karen J. Goff
Michael D. Durda
Courtney E. Woodruff
Dawn M. Russell
